C@OCKLE

2311 Douglas Street L ega ] B rie f E-Mail Address:
Omaha, Nebraska 68102-1214 8 E. a 19 Z contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-679

AMY CORBITT, INDIVIDUALLY AND AS PARENT AND
NATURAL GUARDIAN OF SDC, A MINOR,
Petitioner,

v.
MICHAEL VICKERS,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 20th day of December, 2019, send
out from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF CROSS-IDEOLOGICAL GROUPS DEDICATED
TO ENSURING OFFICIAL ACCOUNTABILITY, RESTORING THE PUBLIC’S TRUST IN LAW ENFORCEMENT,
AND PROMOTING THE RULE OF LAW AS AMICI CURIAE IN SUPPORT OF PETITIONER in the above entitled case.
All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
CLARK M. NEILY III CATHERINE E. STETSON
JAY R. SCHWEIKERT KYLE M. DRUDING
Counsel of Record HOGAN LOVELLS US LLP
CATO INSTITUTE 555 Thirteenth Street, N.W.
1000 Mass. Ave., N.W. Washington, D.C. 20004
Washington, DC 20001 (202) 637-5491
(202) 216-1461 cate.stetson@hoganlovells.com

jschweikert@cato.org
Counsel for Amici Curiae

Subscribed and sworn to before me this 20th day of December, 2019.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary ‘
es  Cblite Qrdrav-h, Bole
My Commission Expires Nov 24, 2020 : .

Notary Public Affiant

 

 

39169
19-679

AMY CoRBITT, INDIVIDUALLY AND AS PARENT AND NATURAL GUARDIAN OF SDC,

A MINOR,
Petitioner,
v.
MICHAEL VICKERS,
Respondent.
Paul Whitfield Hughes
McDermott Will & Emery

500 North Capitol Street, NW
Washington, DC 20001
PHughes@mwe.com

(202) 756-8981

Counsel for Petitioner

Richard Keith Strickland
Brown, Readdick, et al.

5 Glynn Avenue
Brunswick, GA 31520
rstrickland@brbcsw.com
(912) 264-8544

Counsel for Respondent
